No. 20-1119

 

 

In THE
Supreme Court of the United States

AMARIN PHARMA, INC. ET AL., PETITIONERS
v.

HIKMA PHARMACEUTICALS USA INC., ET AL.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

BRIEF OF LIQUIDPOWER SPECIALTY PRODUCTS INC.
AS AMICUS CURIAE IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

4,919 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 1, 2021.

Colin Casey an
Wilson-Epes Printing Co., Inc.
